i

2311 Douglas Street
Omaha, Nebraska 68102-1214
1-800-225-6964
(402)342-2831
Fax: (402) 342-4850

.COCKLE

'^^^"^Legal Briefs

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923

Web Site
www.cocklelegalbriefs.com
No.
DAN HAENDEL,
Petitioner,
vs.
ANNE REED
BB CULLY
RAYMOND C. ROBERTSON
JIM WILLIAMS
MARK R. HERRING
HAROLD W. CLARKE,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 26th day of November, 2019, send
out from Omaha, NE 3 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
DAN HAENDEL
8900 Lynnhurst Drive
Fairfax, Virginia 22031
703-915-2625

Subscribed and sworn to before me this 26th day of November, 2019.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

l,
Notary Public

ObujUau)-'
Affiant

39058

>

SERVICE LIST

Opposing counsel in the proceedings in the court whose judgment is subject to this
petition are as follows:

John Chadwick Johnson
Frith Anderson & Peake PC
29 Franklin Road, SW
Roanoke, VA 24011
Phone: 540-725-3363
Counsel for Anne Reed and Raymond C. Robertson
Richard Hustis Milnor
Taylor Zunka Milnor & Carter LTD
414 Park Street
Charlottesville, VA 22902
Phone: 434-977-0191
Counsel for BB Cully and Jim Williams
Laura Haeberle Cahill
Office of the Attorney General - Richmond
202 North Ninth Street
Richmond, VA 23219
Phone: 804-786-5630
Counsel for Mark Herring and Harold Clarke

